No. 20-559
IN THE SUPREME COURT OF THE UNITED STATES
_________________
JANE DOE, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 8th day of March 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 6,418 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
March 8, 2021

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 8, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0559
DOE, JANE
USA

MELANIE L. BOSTWICK
ORRICK, HERRINGTON & SUTCLIFFE LLP
COLUMBIA CENTER
1152 15TH STREET, NW
WASHINGTON, DC 20005-1706
202-339-8483
MBOSTWICK@ORRICK.COM
MAYA M. ECKSTEIN
HUNTON ANDREWS KURTH LLP
RIVERFRONT PLAZA, EAST TOWER
951 EAST BYRD STREET
RICHMOND, VA 23219
804-788-8788
MECKSTEIN@HUNTONAK.COM
BRIANNE J. GOROD
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH ST., NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
BRIANNE@THEUSCONSTITUTION.ORG
BRIAN R. MATSUI
MORRISON & FOERSTER LLP
2000 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20006
202-887-8784
BMATSUI@MOFO.COM

RASHA GERGES SHIELDS
JONES DAY
555 SOUTH FLOWER STREET
50TH FLOOR
LOS ANGELES, CA 90071
213-243-2719
RGERGESSHIELDS@JONESDAY.COM
MICHAEL J. WISHNIE
JEROME N. FRANK LEGAL SERVICES
P.O. BOX 209090
NEW HAVEN, CT 06520-9090
203-436-4780
MICHAEL.WISHNIE@YALE.EDU

